(~
,~lr
           DEPARTMNT
           DEPARTMENT OF
                      OF HEALm
                         HEALm&& HUMN
                                 HUMANSERVICES
                                       SERVICES                                                      OFFCE
                                                                                                     OFFICEOF

                                                                                                     Offce
                                                                                                     Public
                                                                                                           OFINSPECTOR

                                                                                                     Office of
                                                                                                              INSPECTOR GENERAL

                                                                                                            of Audit Services,
                                                                                                     Public Ledger
                                                                                                                               Region m
                                                                                                                     Servce, Region
                                                                                                                    Building,Suite
                                                                                                             Leger Buildi,
                                                                                                     150 S. Independ~nce
                                                                                                            Independ~nce Mall West
                                                                                                     Philadelphia, PA
                                                                                                     Phiadelphia,  PA 19106-3499
                                                                                                                       19106-3499

                                                                                                                                        m
                                                                                                                               Suite 316

                                                                                                                                     316




                                                           JUll 42009
                                                           JUl 1 4 2009




       Report Number: A-03-07-00027
              Number: A-03-07-00027

       Mr. Todd Kerr
       Senior Vice President and Chief Compliance
                                       Compliance Officer
                                                  Offcer
       Fresenius Medical Care
       Fresenius Medical  CareNorth
                               Nort America
                                    America
       920 Winter Street
       Waltham, Massachusetts 02451-1457

       Dear Mr. Kerr:

       Enclosed isis the
       Enclosed       theU.S.
                         U.S.Department
                              Deparent ofofHealth
                                              Healthand
                                                      andHuman
                                                          HumanServices
                                                                  Services (HHS), Office
                                                                                   Office of
                                                                                          of Inspector
                                                                                              Inspector
       General (OIG), final report entitled "Payments for Epogen Administered at Fresenius Medical
       Care-ArtificialKidney
       Care-Arificial     KidneyCenter
                                  CenterofofSuffolk,
                                             Suffolk, Suffolk,
                                                      Suffolk, Virginia."
                                                               Virginia." We  will forward
                                                                           We wil  forward aa copy  of this
                                                                                               copy of  ths

       report to the HHS action official noted on the following page for review and any action deemed
       necessary..
       necessar

       The HHS
           HHS action official
                         official will make final
                                  wil make    final determnation
                                                    determinationasasto
                                                                      toactions
                                                                         actions taken
                                                                                  taken on
                                                                                         on all
                                                                                            all matters
                                                                                                matters reported.
       We request that
                   that you
                        you respond
                             respond toto this
                                           thisofficial
                                                offcial within 30 days from the date
                                                        withn 30                   date of
                                                                                        of this
                                                                                           this letter.
                                                                                                 letter. Your
       response should present any comments or additional information that you believe may have a
       bearing    the final
       bearng on the        determination.
                      final determnation.

       Pursuant to the Freedom   Freedom of     of Information
                                                     Inormation Act, 5 U.S.c.      U.S.c. §§552,
                                                                                             552, OIG
                                                                                                   OIG reports
                                                                                                         reports generally
                                                                                                                  generally are made
       available      to   the   public     to  the   extent     that   information
       available to the public to the extent that information in the report is not 
     in the report  is     subject
                                                                                                           notsubject  to exemptions in
       the Act.       Accordingly, ths
             Act. Accordingly,              thisreport
                                                   reportwil  willbebeposted
                                                                          postedon   onthe
                                                                                        theInternet
                                                                                            Internetatathttp://oig.hhs.gov.
                                                                                                         http://oig.hhs.gov.

       If you have any questions or comments
                                    comments about
                                                about this
                                                       ths report, please do not hesitate to call me at
       (215) 861-4470
       (215) 861-4470 or though email at Stephen.Virbitsky(goig.hhs.gov, or
                       or through email at Stephen.Virbitsky@oig.hhs.gov,      or contact
                                                                                  contact Bernard   Siegel,
                                                                                           Bernard Siegel,
       Audit Manager,
              Manager, at
                       at (215)
                          (215) 861-4484
                                861-4484or orthrough
                                              though email at Bernard.Siegel@oig.hhs.gov.
                                                                Bernard.Siegel(goig.hhs.gov. Please refer
       to report number A-03-07-00027 in all correspondence.

                                                                   Sincerely,


                                                                 flltL V .~
                                                                   Stephen Virbitsky
                                                                   Regional Inspector General
                                                                     for Audit Services


       Enclosure
Page 2 - Mr.
         Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management
                     Management (CCPGIDCCM)
                                  (CCPGIDCCM)
Centers for Medicare && Medicaid Services
Mail Stop C5-05-0T
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Janet.Samen@cms.hhs.gov
J anet.Samen (gcms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





        PAYMENTS FOR 

   EPOGEN ADMINISTERED AT

  FRESENIUS MEDICAL CARE –

  ARTIFICIAL KIDNEY CENTER 

         OF SUFFOLK,

      SUFFOLK, VIRGINIA





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-03-07-00027

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in section
226A of the Act. Benefits include injections of Epogen, usually administered during dialysis.
Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. Epogen doses are generally adjusted by a physician
based on a review of the patient’s medical record. For facilities that use a preestablished dosing
algorithm, a nurse may also adjust the Epogen dose to maintain an optimal hematocrit (red blood
cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal regulations
(42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon request, to
determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Artificial Kidney Center of Suffolk (Suffolk), located in Suffolk,
Virginia, is one of more than 1,500 renal dialysis facilities operated by Fresenius Medical Care
North America (Fresenius). Suffolk provides treatment for end-stage renal disease using 28
renal dialysis stations. It received payments totaling $7,312,704 for Medicare services provided
from January 1, 2004, through June 30, 2006. Of this amount, $2,535,030 was for the
administration of Epogen. During our audit period, Suffolk used dosing algorithms to adjust
patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Suffolk administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Suffolk’s medical records.

SUMMARY OF FINDING

For 85 of the 100 sampled claims, Suffolk administered, billed, and was paid for units of Epogen
that were consistent with the units ordered by attending physicians, as reflected in Suffolk’s
medical records. However, Suffolk did not meet the Medicare payment requirements for some
dates of service for 15 claims. In those instances, we identified discrepancies in Suffolk’s
medical and billing records between the units of Epogen ordered by the patients’ attending
physicians and the units administered to the patients, billed by Suffolk, and paid by Medicare.



                                                i
   •	 For five claims reviewed, with errors totaling $756, Suffolk billed and Medicare paid for
      more units of Epogen than were ordered by attending physicians.

   •	 For seven claims, Suffolk’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by the patients’ attending physicians and the units
      administered to the patients, billed by Suffolk, and paid by Medicare. For purposes of
      this report, we considered these errors procedural because they did not result in
      overpayments.

   •	 For three claims, Suffolk’s medical records reflected errors in documenting the ordering
      and administering of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 15 claims occurred because administering nurses responsible for
documenting and flagging the patients’ files for changes in Epogen orders did not always follow
the policy and procedures in the Fresenius Manual for ensuring that changes in the units of
Epogen ordered were properly identified and entered into the Fresenius System. As a result,
Suffolk received $756 in overpayments and patients did not always receive the units of Epogen
ordered by attending physicians. When attending physicians’ orders are not followed, quality of
care may be affected.

RECOMMENDATIONS

We recommend that Suffolk:

   •	 refund $756 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Suffolk, and paid
      by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix), Fresenius stated that it will contact the
intermediary about refunding the $756 in overpayments and that the nursing staff will undergo a
training program to improve compliance with policies and procedures relating to the ordering
and administration of Epogen. Fresenius also brought to our attention a technical correction
regarding its algorithm policy that we have amended in the report.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Fresenius Medical Care—Artificial Kidney Center of Suffolk .............................2 

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               More Units of Epogen Administered, Billed, and Paid Than Ordered..................5 

               Epogen Administered More Frequently Than Ordered .........................................6 

               More Units of Epogen Billed and Paid Than Administered .................................6 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN 

            DISCREPANCIES.........................................................................................................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN 

            DISCREPANCIES.........................................................................................................7 


          FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED................8 


          RECOMMENDATIONS...................................................................................................9                 


          FRESENIUS COMMENTS ..............................................................................................9                  


APPENDIX

          FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                                                   iii
                                              INTRODUCTION                                                          


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—Artificial Kidney Center of Suffolk (Suffolk) used algorithms to determine the dose of
Epogen to administer to its patients.




1
 Epogen is an “erythropoietin stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter]….” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                         1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Artificial Kidney Center of Suffolk

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Suffolk, located in Suffolk, Virginia, is one of more than 1,500 renal dialysis facilities operated
by Fresenius. Suffolk provides treatment for end-stage renal disease at 28 renal dialysis stations.
It received payments totaling $7,312,704 for Medicare services provided from January 1, 2004,
through June 30, 2006. Of this amount, $2,535,030 was for the administration of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).



4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

The Fresenius System prints a treatment sheet for each patient that lists selected patient
information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Suffolk administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Suffolk’s medical records.

Scope

Our review covered 3,293 monthly claims totaling $2,535,030 for Epogen administered by
Suffolk from January 1, 2004, through June 30, 2006.

We limited our review of Suffolk’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Suffolk’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at the Fresenius headquarters in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Suffolk’s policies
      and procedures and the Fresenius Manual;

   •	 reviewed Suffolk’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	 interviewed Fresenius officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and




                                                 3

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at Suffolk from January 1, 2004, through June 30, 2006, and:

           o	 selected from the sampling frame a simple random sample of 100 claims for
              Epogen totaling $71,687 and

           o	 for each sampled claim, compared the units of Epogen ordered by the Suffolk
              attending physician, administered to the patient, billed by Suffolk, and paid by
              Medicare to determine whether such units, as reflected in Suffolk’s medical and
              billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For 85 of the 100 sampled claims, Suffolk administered, billed, and was paid for units of Epogen
that were consistent with the units ordered by attending physicians, as reflected in Suffolk’s
medical records. However, Suffolk did not meet the Medicare payment requirements for some
dates of service for 15 claims. In those instances, we identified discrepancies in Suffolk’s
medical and billing records between the units of Epogen ordered by the patients’ attending
physicians and the units administered to the patients, billed by Suffolk, and paid by Medicare.

   •	 For five claims reviewed, with errors totaling $756, Suffolk billed and Medicare paid for
      more units of Epogen than were ordered by attending physicians.

   •	 For seven claims, Suffolk’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by the patients’ attending physicians and the units
      administered to the patients, billed by Suffolk, and paid by Medicare. For purposes of
      this report, we considered these errors procedural because they did not result in
      overpayments.

   •	 For three claims, Suffolk’s medical records reflected errors in documenting the ordering
      and administering of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 15 claims occurred because administering nurses responsible for
documenting and flagging the patients’ files for changes in Epogen orders did not always follow
the policy and procedures in the Fresenius Manual for ensuring that changes in the units of
Epogen ordered were properly identified and entered into the Fresenius System. As a result,
Suffolk received $756 in overpayments and patients did not always receive the units of Epogen



                                               4

ordered by attending physicians. When attending physicians’ orders are not followed, quality of
care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated the medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Suffolk’s medical and billing records with respect to the
units of Epogen (1) ordered by the patients’ attending physician, (2) administered by the nurse to
the patient, (3) billed by Suffolk, and (4) paid by Medicare. For five claims reviewed, with
errors totaling $756, Suffolk billed and Medicare paid for more units of Epogen than was ordered
by the attending physicians.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For three claims covering three patients, Suffolk’s medical records contained attending
physicians’ orders that changed the units of Epogen prescribed, but an assigned staff member did
not record the changes in the Fresenius System accurately or on a timely basis. Consequently,
the Fresenius System printed treatment sheets showing incorrect units or frequency of Epogen,
which were administered to the patients, billed by Suffolk, and paid by Medicare.



5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

   •	 For one claim, the attending physician’s order, dated May 25, 2004, prescribed 20,000
      units of Epogen to be administered with each treatment; however, the dose for Tuesday
      was to be administered subcutaneously and the doses for Thursday and Saturday were to
      be administered intravenously. Treatment sheets for three of the four Tuesdays in
      December 2004 reflected that the patient receive two doses of Epogen: 20,000 units
      subcutaneously and 20,000 units intravenously. As a result, Suffolk administered and
      billed, and Medicare paid for 60,000 units more of Epogen, totaling $480, than was
      ordered.

   •	 For one claim, the attending physician’s order, dated December 10, 2004, suspended the
      administration of Epogen for one week but ordered that the patient receive 6,000 units of
      Epogen with each treatment thereafter. Although nurses did not administer Epogen on
      December 10, 2004, they did administer 6,000 units of Epogen on December 13 and 15,
      2004. As a result, Suffolk administered and billed, and Medicare paid for 12,000 units
      more of Epogen, totaling $96, than was ordered.

   •	 For one claim, the attending physician’s order, dated September 28, 2005, decreased the
      prescribed Epogen dose from 3,000 units to 1,500 units. On September 29, 2005, the
      treatment sheet reflected the original dose of 3,000 units of Epogen. Suffolk,
      administered and billed, and Medicare paid for 1,500 units more of Epogen, totaling $12,
      than was ordered.

In total for these three patients, Suffolk administered and billed, and Medicare paid for 73,500
more units of Epogen, totaling $588, than was ordered.

Epogen Administered More Frequently Than Ordered

For one claim, the attending physician order, dated May 24, 2004, prescribed 20,000 units of
Epogen to be administered once a week but the treatment sheet and the Suffolk medical records
did not reflect which day of the week to administer the dose. The Suffolk medical record
reflected that the patient did not always arrive for the dialysis treatment and often left before the
treatment was completed, against medical advice. However, during one week in June 2004,
Suffolk administered 20,000 units of Epogen during two treatments. As a result, Suffolk
administered and billed, and Medicare paid for 20,000 units more of Epogen, totaling $160, than
was ordered.

More Units of Epogen Billed and Paid Than Administered

For one claim, Suffolk billed and Medicare paid for more units of Epogen than were
administered to the patient during the month reviewed. The Suffolk medical record showed that
the attending physician ordered 1,000 units of Epogen beginning on February 17, 2004. Based
on the patient’s treatment sheets, Suffolk administered the ordered dose during five treatments,
totaling 5,000 units, but billed Medicare for 6,000 units. Suffolk billed and Medicare paid for
1,000 units more of Epogen, totaling $8, than was ordered and administered.




                                                  6

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

 For seven claims, Suffolk’s medical and billing records reflected discrepancies between the
units of Epogen ordered by patients’ attending physicians and the units administered to the
patients, billed by Suffolk, and paid by Medicare. For purposes of this report, we considered
these errors procedural because they did not result in overpayments.

   •	 For three claims, the Suffolk medical records reflected that attending physicians’ orders
      increased the dose of Epogen for three patients. The treatment sheet continued to reflect
      the original lower dose for one treatment following the effective date of the physicians’
      orders and nurses continued to administer the lower doses.

   •	 For three claims, the Suffolk medical records reflected that attending physicians’ orders
      decreased the dose of Epogen for two patients and increased the dose of Epogen for one
      patient. The physicians’ orders reflected the effective date for the new dose. However,
      treatment sheets for one or more treatments preceding the effective date reflected the new
      dose because designated Suffolk staff entered the change in the Epogen dose in the
      Fresenius System with the wrong effective date. Nurses administered the new dose
      reflected on the treatment sheet.

   •	 For one claim, the Suffolk medical record reflected that on September 15, 2005, the
      attending physician’s order decreased the dose of Epogen from 1,500 to 1,000 units.
      However, the treatment sheets for September 12 and 14 reflected that nurses administered
      the lower dose before the effective date of the physician’s order. On September 28 and
      30, nurses administered a lower dose of 800 units of Epogen without a new attending
      physician order.

Suffolk administered and billed, and Medicare paid for the units administered to the patient that
were higher or lower than was ordered.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

In Virginia, the Nurse Practice Act defines nursing, including licensing requirements, in the
Code of Virginia (54.1 Va. C. § 3000) to include the administration of medications and
treatments as prescribed by any person authorized by law to prescribe such medications and
treatment. Also, the code requires nurses to carry out treatment care, medication administration,
lab tests, procedures, and other treatments based on physician orders (54.1 Va. C. § 2901 (A)(4)).
To assist facilities in documenting compliance with Federal and State requirements, the
Fresenius Manual requires an order for all new medications or whenever a medication dose
changes. Nurses are responsible for ensuring all medications provided to patients have
accurately documented physician orders. It also requires a physician’s signature for prescription
orders, and a signature or initials of the administering nurse on the treatment sheet to show that
the Epogen has been administered.




                                                7

For three claims, the Suffolk medical records reflected errors in documenting the ordering and
administering of Epogen because patients’ medical records either lacked the attending
physicians’ orders or the attending physician’s order lacked the signature/initials of the
physician, as required by Suffolk’s internal policies, including those in the Fresenius Manual.
Suffolk administered and billed and Medicare paid for the units ordered and administered.

    •	 For two claims covering two patients, the Suffolk medical records did not reflect
       attending physicians’ orders for Epogen for dates of service reviewed. Because Suffolk
       medical records did not include the attending physicians’ orders, we used the units of
       Epogen reflected on the prescribed section of the patient’s treatment sheets as the number
       of units ordered and administered by Suffolk. Also, during the months reviewed, the
       medical records reflected physician orders that referred to a previous Epogen order.
       Suffolk administered and billed, and Medicare paid for the total units of Epogen reflected
       on the patients’ treatment sheets.

    •	 For one claim covering one patient, the Suffolk medical record reflected the attending
       physician order increasing a patient’s Epogen dose from 11,000 to 15,000 units; however,
       the attending physician did not sign the order. Suffolk administered and billed, and
       Medicare paid for the 15,000 units of Epogen reflected on the unsigned order

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.

    •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
       Administering nurses and patient care technicians provide treatment according to
       instructions printed on treatment sheets and administering nurses must ensure that all
       medications provided to the patient have been accurately documented with signed
       attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
       states that “[p]roviding service without physician orders is in violation of nurse practice
       acts.” Accordingly, the attending physician must provide a written order for the
       administering nurse to begin a new medication or to change the dose of a medication. 6

    •	 Each facility must develop a process by which the attending physician “flags” charts that
       have new or changed orders so that authorized support personnel can identify that a
       change has occurred and enter the change in the Fresenius System. Also, the Fresenius
       Manual identifies the duties and responsibilities for accurately documenting and updating
       its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
       System, those changes will be reflected on the patient’s next treatment sheet.

6
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                        8

   •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
      into the Fresenius System until the treatment is completed. A treatment sheet is
      considered completed after the administering nurse has given the treatment to the patient,
      administered all medications ordered, and confirmed the completion of these tasks by
      including their initials or signatures on the treatment sheet where appropriate.

Although Suffolk had controls in place as specified in the Fresenius Manual, based on our
review, Suffolk personnel did not always follow all of these procedures. Attending physicians’
orders changing the dose of Epogen were not always identified and entered into the Fresenius
System in accordance with signed physicians’ orders. Therefore, the units of Epogen ordered by
the attending physicians did not always appear on patients’ treatment sheets.

Also, attending physician orders were not always signed or reflected in the Suffolk medical
records.

RECOMMENDATIONS

We recommend that Suffolk:

   •	 refund $756 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Suffolk, and paid
      by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $756 in overpayments and that the nursing staff will undergo a training program to
improve compliance with policies and procedures relating to the ordering and administration of
Epogen. Fresenius also brought to our attention a technical correction regarding its algorithm
policy that we have amended in the report. Fresenius’s comments are included in the Appendix.




                                                9

APPENDIX

                                                                                         APPENDIX 

                                                                                          Page 1 of 3




                                        VI
                          Fresenius Medical Care
                               North America
   June 19, 2009

   Stephen Virbitsky
   Regional Inspector General for Audit Services
   Office of Audit Services. Region III
   Public Ledger Building, Suite 316
   150 $. Independence Mall West
   Philadelphia, PA 19106-3499

   Re: Audit Draft A-Q3-07-QOO27, Payments for Epogen Administered at
   Fresenius Medical Care-Artificial Kidney Center of Suffolk, Suffolk Virginia

   Dear Mr. Virbitsky

   Thank you for the opportunity to review and respond to your office's Draft
   Report.

   The results of this draft report are consistent with other Medicare claims
   reviews conducted internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audit program activities) and with other external reviews such as
   CERT and PERM. Of the $71,687.00 in claims reviewed. $756 was identified
   by the audit as not eligible for Medicare reimbursement - reflecting 1.05% of
   the sampled ciaims. This payment error rate compares favorably to the most
   recent May 2008 3.7% CERT national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   DIG Audit Recommendation:

   "ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the patients' physicians and the units administered to the patient,
   billed by Suffolk, and paid by Medicare",

   Fresenlus Corrective Action Taken or Planned:

   While the payment error rate is low, we recognize the need for the facility to
   improve its compliance with policies and procedures relating to the ordering
   and administration of Epogen, Therefore, the dinic will take the following
   steps:
Fresenius Medical Care North America
Corporate Headquarters:    920 Winter Street   Waltham, MA 02451·1457   (781) 699·9000
                                                                                          APPENDIX 

                                                                                           Page 2 of 3





       • All nursing staff will undergo an in-service program designed to inform
         the staff of: (a) the statutes and regulations relating to creating and
         maintaining medical record documentation; (b) the applicable
         Fresenius policies, including but not limited to documentation of
         physician orders and documentation of care furnished while the
         computer medical record is down; (c) the responsibility of each staff
         member to conform to applicable statutes, regulations, and policies;
         and (d) the consequences of failing to comply with applicable
         Fresenius policies. All new nursing staff members will continue to
         undergo Fresenius training which includes the foregoing topics.
       • Consistent with the Part 494 Conditions for Coverage (42 CFR Section
         494.110 Condition; Quality assessment and performance
         improvement) for the next 12 months the facility's Quality Assessment
         and Improvement Process will review a sampling of active medical
         records to monitor improved oompliance with applicable Fresenius
         medical record documentation policies.
       • The 2010 Fresenius Compliance Audit program will include a review of
         (a) the training activity abOve, to ensure that all affected employees
         were trained; (b) the (quality improvement process) to ensure that the
         aforementioned reviews occurred; and (c) an assessment of whether
         the training and monitoring has been effective in causing the facility to
         conform to applicable Fresenius policies.

OIG Audit Recommendation:

~refund    the $756 in overpayments·

Fresenius Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intermediary to
       determine the process to repay overpayments.


Finally, I note that in the Background section of the Introduction, the audit states:

       ·Some facilities may also use a preestablished dosing algorithm. The
       algorithm is a formula established by the facility Medical Director and
       ordered by the physician.·

At Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by staff physk:ians, it is
the staff physician (and not the medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the clinic (including
the staff physician who serves as medical director) agree to use a single

Fresenius Medical Care North America
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451·1457    (781) 699·9000
                                                                                        APPENDIX
                                                                                         Page 3 of 3





algorithm, it is the staff physician rather than the medical director who establishes
an algorithm for a particular patient.

Sincerely,




Todd Kerr
Senior Vice President and Chief Compliance Officer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451




Fresenius Medical Care North America
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451·1457   (781) 699-9000
